No. ______
In the

Supreme Court of the United States
__________________
JOHNDRELL ELLIOTT,
v.

Petitioner,

STATE OF OHIO,
__________________

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Ohio

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
JAMES R. WILLIS, ESQ.
Counsel of Record
420 Lakeside Place
323 Lakeside Avenue, NW
Cleveland, Ohio 44113
(216) 523-1100
(216) 861-4161 (Fax)
jrwillis-barrister@sbcglobal.net

Counsel for Petitioner

April 3, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
I
GIVEN A TRAFFIC STOP MADE BY THE STATE
TROOPER, WHO WAS THE “DOG HANDLER”
INVOLVED, WAS ACTUALLY IN THE PROCESS OF
FINALIZING HIS TICKET WRITING, WHEN HE
STOPS DOING SO AFTER JOINED BY OTHERS. HE
THEN ORDERS THE PEOPLE OUT OF THE
VEHICLE AND MAKE USE OF HIS DOG WHO
THEN ALERTS: CAN THE DRUG OFFENSE
ARREST BASED ON THESE FACTS SURVIVE
RODRIGUEZ V. U.S., 135 S. CT. 1609 (2015)?
II
GIVEN THE REMOVAL OF THE MOTORIST AND
HIS PASSENGER FROM THEIR VEHICLE (BY A
TROOPER) WHO WAS IN THE FINAL PHASES OF
WRITING A WARNING TICKET (HERE FOR A
WINDOW TINT VIOLATION), WHICH RENDERED
THE VEHICLE A LAWFULLY PARKED VEHICLE,
BE SEARCHED WITHOUT A WARRANT?
III
WHERE THE TROOPER WHO WAS FINALIZING
HIS WRITING OF A TICKET (FOR A TINT
VIOLATION), IS JOINED BY OTHER TROOPERS,
LITERALLY STOPS DOING SO TO ORDER THE
PEOPLE OUT OF THE VEHICLE SO HE CAN MAKE
USE OF HIS “DOG”: CAN THE USE OF THE DOG BE
SAID TO BE ANYTHING OTHER THAN A
WARRANTLESS SEARCH, WHICH REQUIRED
PROBABLE CAUSE?

ii
IV
IF THE TEST IS NOT WHETHER THE TRAFFIC
STOP LASTED LONGER THAN THE AVERAGE
TRAFFIC STOP, BUT WHETHER IT LASTED
LONGER THAN WAS NECESSARY TO COMPLETE
THE PURPOSE OF THE STOP, CAN IT BE SAID
WITH IMPUNITY, THE TROOPER WAS JUSTIFIED
IN INTERRUPTING HIS WRITING OF THE TICKET
IN ORDER TO MAKE USE OF HIS DOG, AFTER
WHICH THE MOTORISTS WERE REMOVED, THE
DOG ALERTED?

iii
STATEMENT OF RELATED PROCEEDINGS
There are no related cases or proceedings that
Counsel is aware of.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE GROUNDS ON WHICH
JURISDICTION OF THIS COURT IS
INVOKED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE FACTS . . . . . . . . . . . . . . 8
ARGUMENTS RELIED ON FOR ALLOWANCE
OF WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
ARGUMENT NO. I: GIVEN THERE IS, AND
WAS, NO JUSTIFICATION WHATSOEVER
FOR THE USE OF THE CANINE HERE, IT
INEXORABLY FOLLOWS THE DELAYS
REQUIRED TO DO SO, BEING
INDEFENSIBLE, IT MUST BE DEEMED
UNCONSTITUTIONAL IN THE WAKE OF
RODRIGUEZ . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

v
ARGUMENT NO. II: GIVEN A CANINE WAS
PURPOSEFULLY MANEUVERED TO ALERT,
IF POSSIBLE, WITH REFERENCE TO A
LAWFULLY PARKED VEHICLE THAT WAS
UNOCCUPIED AT TH E TIM E, IT
INEXORABLY FOLLOWS THAT ABSENT
EXIGENT CIRCUMSTANCES A WARRANT
WOULD BE REQUIRED TO CONDUCT A
SEARCH BASED SOLELY ON ANY
PROBABLE CAUSE SUPPLIED BY SUCH
ALERT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
ARGUMENT NO. III: ONCE THE TRAFFIC
OFFICER HERE, INDICATED THE TRAFFIC
INVESTIGATION WAS OVER, AND THE
MOTORIST WOULD BE RELEASED
MOMENTARILY FROM THE INVESTIGATIVE
SEIZURE; IT INEXORABLY FOLLOWS, THE
DETENTION RELATED TO THE TRAFFIC
STOP WAS OVER; HENCE, ANY FURTHER
DETENTION UNRELATED TO THE STOP
REQUIRED PROBABLE CAUSE TO ARREST
(OR DETAIN), WHICH IF NON-EXISTENT
(THE CASE, HERE), CANNOT SURVIVE
MEANINGFUL SCRUTINY . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
APPENDIX
Appendix A Judgment Entry in the Supreme Court
of Ohio
(February 18, 2020) . . . . . . . . . . . App. 1

vi
Appendix B Opinion in the Court of Appeals
Guernsey County, Ohio Fifth
Appellate District
(October 23, 2019) . . . . . . . . . . . . . App. 2
Appendix C Order
Re:
Findings
of Fact,
Conclusions of Law, and Judgment
Entry in the Court of Common Pleas,
Guernsey County, Ohio
(March 20, 2018) . . . . . . . . . . . . . App. 12

vii
TABLE OF AUTHORITIES
CASES
Arizona v. Johnson,
555 U.S. 323 (2009). . . . . . . . . . . . . . . . . . . . . . . . 3
Florida v. Royer,
460 U.S. 491 (1983). . . . . . . . . . . . . . . . . . . . . . . . 4
Illinois v. Caballas,
543 U.S. 405 (2005). . . . . . . . . . . . . . . . . . . . . 3, 19
Rodriguez v. United States,
135 S. Ct. 1612 (2015). . . . . . . . . . . . . . . . . passim
Sibron v. New York,
392 U.S. 40 (1968). . . . . . . . . . . . . . . . . . . . . . . . 24
Terry v. Ohio,
392 U.S. 1 (1968). . . . . . . . . . . . . . . . . . . . . passim
United States v. Bell,
820 F.3d 535 (6th Cir. 2009). . . . . . . . . . 15, 25, 26
United States v. Evans,
786 F.3d 779 (2015). . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Oliver Mendez,
484 F.3d 565 (2007). . . . . . . . . . . . . . . . . . . . 15, 16
CONSTITUTIONAL PROVISIONS AND
STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . 2, 3

viii
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
To the Honorable, the Chief Justice and
Associate Justices of The Supreme Court of the
United States:
The Petitioner, Johndrell Elliott, respectfully prays
that a Writ of Certiorari be issued to review the
judgment entry in the Supreme Court of Ohio
originally filed in this case on February 18, 2020.
OPINIONS BELOW
State v. Elliott, the Opinion centralized in this
Petition, is reported as Guernsey County, Ohio, Court
of Appeals No. 2119 Ohio 3594, and ____WL____. In
this Petition it is designated as Appendix “B”. The
Order of the Ohio Supreme Court rendered on
February 18, 2020, denying further Appellate review,
is regarded herein as Appendix “A.”
STATEMENT OF THE GROUNDS ON WHICH
THE JURISDICTION OF THIS COURT IS
INVOKED
The judgment of the Ohio Court of Appeals was
rendered on November 6, 2019. This Petition is being
seasonably filed, under favor of 28 U.S.C., §1254(1).
This follows because the Order of the Ohio Supreme
Court denying further Appellate Revision was rendered
on February 18, 2020.
CONSTITUTIONAL AND STATUTORY
PROVISIONS
The principle provisions of the United States
Constitution involved in this case are the search and
seizure clause of the Fourth Amendment and the self-

2
incriminating clause of the Fifth Amendment.
Likewise, relevant here are the due process clauses of
the Sixth and Fourteenth Amendments. The pertinent
text of these reads as follows:
AMENDMENT IV:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
AMENDMENT V:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
AMENDMENT VI:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by

3
an impartial jury of the state and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the assistance of
counsel for his defense.
AMENDMENT XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
Given the fact that when the Supreme Court
indicated in Caballes1 and Arizona v. Johnson2 that the
Fourth Amendment only tolerates certain
investigations that are unrelated to officer’s mission in
connection with traffic stops, but only if they “did not
lengthen the roadside detention,” and it recognized

1

Illinois v. Caballes, 543 U.S. 405 (2005).

2

Arizona v. Johnson, 555 U.S. 323 (2009).

4
that it could “become unlawful if it is prolonged beyond
the time reasonably required to complete the mission
of issuing a warning ticket” Rodriguez v. United States,
135 S. Ct. 1612 (2015). Also, it is a given, because the
Court said so, that the stop must be “temporary and
last no longer than is necessary to effectuate the
purpose of the stop.” Florida v. Royer, 460 U.S. 491,
500 (1983).
As we read the cases, it is clear enough, here, that
this is a matter of great public or general issue; as well
as, a substantial constitutional question to be reckoned
with. It was created by the Opinion rendered, herein,
indeed when this Appellate Court made a
determination that; inasmuch as, the average time for
the issuance of a traffic ticket being 10-20 minutes, if
the officers are able to obtain probable cause to search
within that time frame, that would be okay. And, that
would invariably be so for those who live in Ohio.
Indeed, as our Court of Appeals put it, their reference
to the critical time interval seems clearly to make that
point. See ¶¶24-25, of the Opinion, referred to herein as
Appendix “B.” The fact that this was a finding not
made by the trial Court bears clearly on the issues
postured by these facts. This is especially so since any
findings that Trooper Hawkins did not prolong this
stop to make use of his dog after Elliott had been
virtually cleared to go would be a prevarication. Our
thesis, here, is verified for those who read objectively
the referred to pages of the Transcript.
Given the jurisprudence provided us in Rodriguez v.
United States, which the Court below fully credits us
with relying on, and rightly so, its rejection of the

5
following thesis for which it stands clearly qualifies
this case for review. This follows because the Opinion
below clearly clashes with the following thesis for
which Rodriguez now stands for. Indeed, to approve
this conviction, it must agree with the Court below that
Rodriguez did not articulate, indeed categorically, the
tenet that: absent reasonable suspicion of some sort of
criminal activity unrelated to the primary purpose of
the stop, the police may not routinely extend the
duration of the stop, however briefly, to conduct a
canine sniff or undertake any other such non-routine
criminal investigation (as was done, here) for clearly
ulterior reasons.
Let’s be very clear: the following paragraphs of the
Court’s opinion are clear enough. Indeed, they aptly
posture the dispositive issues in this case. Here,
Reference is to ¶¶’s 7 and 8 of the Opinion labeled State
v. Elliott, 2019-Ohio-3594. It is attached here as
Appendix “B” (infra, at App. 2). Here it states, which is
not quite accurate,3 that:
{¶7} While Hawkins was reviewing the records
of both men, Trooper Roe arrived . . . Hawkins
. . . decided . . . to walk his canine around
appellant’s vehicle. Both men were asked to exit
the vehicle while this took place. The canine
alerted . . .
{¶8} From stop to dog sniff, the stop took 16
minutes and 35 seconds.
Given the awesome significance of Rodriguez v.
United States, 135 S. Ct. 1612 (2015), one must first
3

The actual testimony shows no probable cause existed.

6
understand the Court there held that the “seven or
eight-minute delay” involved, related to the dog, was
only a de minimus intrusion under the Fourth
Amendment “was not of constitutional significance.” Id.
at 1614-15. (Emphasis supplied.) Postured by the above
insuperable showings, this counsel truly believes it is
disingenuous to even suppose that the intended use of
the dog, here, was a planned event. For sure, it was at
all times fully scripted to occur so that the trooper
could hopefully verify his suspicions. This being that
because the occupants of the vehicle had these
extensive drug conviction histories, the likelihood was
good there was evidence of a crime in the vehicle that
was amenable to a dog search. In our view, the notion
that they had engaged in certain ill-defined movements
inside the vehicle, was a conjuration. This latter thesis
is verified by the fact that the summoned back up was
only sought after the decision to use the dog was
reached. This follows because, otherwise, the hole in
their rationale would have been even more obvious.
So, let’s be very clear. Johndrell Elliott does indeed
challenge the legality of what he regards as the
“prolonged detention” he was subjected to. This done in
the wake of his having been stopped for a very minor
traffic offense. The claim is: these officers exceeded any
reasonable time duration related to the purported
justification for the stop itself.
So postured, given the stop arguably was justified,
the law is clear. Its’s justification still must then be
assessed for reasonableness. With that being so, surely
the Court of Appeals (we believed) fully understood

7
this. For sure, as well, there is nothing that shows the
Ohio Courts did. This follows because there was
nothing written by the trial Court that shows the
findings were made to support any finding that the
critical time involved here was only 16 minutes.
Likewise, who made the finding that this time span
was within the average range for such stops. Clearly,
it was simply imputed by the appeals Court, which is
not fair. This follows because findings on dispositive
issues are mandatory; and must be “supported by
credible evidence.” See Appendix “B,” Opinion, ¶¶16-17.
How the Court of Appeals determined and resolved
the issues involving what facts determined by the trial
Court on the duration issues involved here, and which
the Appellate Court relied on, we were not told. Given
its reasoning pattern was unstated, it has to be that
something is wrong with that picture. It could very well
be that the Court of Appeals simply ignored the role it
was supposed to play, here. For sure, it is clear the
dispositive finding of fact was made by the Court of
Appeals and then imputed to the trial Court. Clearly,
as well, the Court of Appeals seemingly failed to
understand its role was that of a reviewing Court. It
was supposed to review the finding made by the trial
Court, not make its own findings.
II
Clearly then, as well, the Court of Appeals, either,
because it failed to grasp the depth of the issues here,
or its role in this process (or both), simply put, reached
the wrong conclusions. For it is also clear the Court’s
assessment of the law is, and likewise was, completely
and indisputably wrong. Here, we start with certain

8
basic tenets, or truths. It starts with Rodriguez v.
United States, 135 S. Ct. 1612 (2015). There, the charge
made that there was an illegal prolongation of a “valid”
stop in order to conduct a canine sniff. Id. at 1612.
There, the “canine officer,” not unlike the trooper here,
was the officer charged with writing the ticket. In
Rodriguez, after the stop, he called in to verify whether
the operation of the vehicle was lawful and for a
routine check. Not unlike the situation here, having
(illegally) compelled the passenger to identify himself,
it then happened for reasons that are not clear, after
reading about the records of the travelers, and for
reasons unrelated to the issuance of a ticket, the
Record is clear the officer truly wanted to have the dog
do its work. Thus, it happened that, after the other
officers arrived - - and this is what happened here, the
canine officer then put his dog to work.
STATEMENT OF THE FACTS
The facts, here, show that even before making use
of the dog to validate these people, the trooper had
targeted them as being drug dealers. For sure, it was
because of their records he sent for assistance. This
shows he fully intended (all along) to make use of that
dog - - come what may. Given that background, it is
also compellingly relevant that while the officer started
writing the warning ticket, which he told them was all
that was going to happen, which meant to them would
then be on their way, the facts show that once the other
officers arrived, the officers then ordered both people
out of their vehicle. Clearly all that took time. It was
afterwards the trooper who made the stop then put his

9
dog to work. For sure, while it was doing so, the dog
alerted to the hood of the vehicle.
As to how much time it took for the trooper to study
their long records, call for the backup (since he
intended all along) to make use of the dog, we do know.
We also do know that these considerations were
ignored in the trial Court’s ratiocinations. If it were,
otherwise, he would have made the finding required,
here. Our belief is that this trooper’s use of the dog,
following his calls for assistance were wasted minutes.
Clearly then, what these failures by the trial Judge tell
us is that: when he denied our Motion, he did not have
a clue as to whether for these extra-curricular activities
taken that did not relate to the stop could be resorted
to with impunity. What this all means is the conclusion
that the delays we are talking about could be validated
if they did not take too much time, which is what the
Appellate Court held.
Having said all that, let’s see how Rodriguez works,
here. First off, we know that “like a Terry stop, context
is determined by the seizure’s mission - - to address the
traffic violation that warranted the stop, and attend to
related safety concerns [here].” Id. at 1614. Here, too,
this Court made it a point to note officers “may not
[deal with unrelated matters] in a way that prolongs
the stop absent the reasonable suspicion ordinarily
demanded to justify detaining an individual.” Id. at
1615.
What thus magnified the issue for this Court could
not be any clearer. It centralizes the fact that nowhere
therein did our Court even bother to address the issue
made even more critical here by the decision rendered

10
in the Rodriguez decision itself. Instead of doing that,
our Court simply told us his stated reason for doing so
magnifies our disbelief it was enough the total time
involved was not unreasonable. The trooper had
convinced this Court the average time it takes for all
traffic stops (including those in which dogs are used) is
only 10-20 minutes and the time involved here, which
was approximated was sixteen (16) minutes it was
reasonable.
While reliance on that nonsense was bad enough, it
was nonetheless a question of fact the resolution of
which was conjured up by a reviewing Court. It was
then imputed to the trial level Court - - in a sort of cart
before the horse scenario. Still, let’s also be very clear.
When the Appeal Court reasoned the total time lapsed
here was sixteen (16) minutes or so in its opinion, as
the Court concluded in its Opinion, it was relying on an
estimate it had bene given. Appendix “B,” Opinion,
¶¶24-25. For here, the Record shows that with full
knowledge that a tinted window violation had occurred,
and with knowledge he would be issuing only a
warning citation, the trooper (rather than write up the
ticket, which he said could be done “roughly” in a
minute [tr. at 31-32]), took more than the six (6)
minutes that elapsed before he learned about the
extensive records these people had (ibid). This time
lapse must be further extended to accommodate the
time the Trooper spent studying their records while he
remained seated in his vehicle. Tr. at 55-56. Also see
Tr. at 52, where the Trooper explained (after they were
good to go), he thought it was okay, as he put it, he had
“to wait … for the criminal history to come back from
dispatch.” Tr. at 152-53. Clearly these procrastinations

11
were the sole reasons for the delay that were created,
here.
Here, too, let’s be clear. Some of us already know
what the Rodriguez Court also knew, and we suppose
so does and did the Courts here, that a dog sniff is not
an element of a traffic stop. Ibid. Consider the fact that
in United States v. Evans, 786 F.3d 779 (2015), shortly
after Rodriguez was decided, that Court ruled an
officer’s prolongation of the traffic stop to conduct both
an ex-felon’s registration check and a ‘dog sniff’
violated the Fourth Amendment unless the officers had
independent reasonable suspicion to support the
prolongation.
II
To avoid any possible argument that in counsel’s
efforts here, which admittedly are intense, he may have
somehow ignored his ethical and constitutional
obligation, not have let any of his arguably less than
perfect beliefs influence his actions, we submit the
following chronology as being the best we could do with
this Record. It shows, as we read the Record, some time
elapsed after the stop was made. It was at 2:01 and
2:43 seconds when the troopers and Elliott started
talking about the tint issue, after which the trooper
concluded his measurement and said he would be
issuing a warning citation. Tr. at 18. At least this much
is clear. We know he already had the driver’s
paperwork when they talked about the tint, for the
estimated :20 seconds it took to do so. It was then only
14:03:23. Tr. at 23. The dispatcher was then contacted
at 14:05:27 (id. at 30), and by 14:11:18 (id. at 35), it
was said they were already good to go.

12
In all this, we have to factor into our ratiocinations,
indeed into our thinking, here, that “from 14:05:27 to
14:11:18 while . . . [he was] sitting in his car . . . [that
he learned] both of them were good” to go, yet he was
still “going through their driving record on . . . [his]
computer,” but he was still not writing the ticket. Tr. at
31-32.
Let’s be clear. This officer testified it would have
taken him only two (2) minutes to write the ticket (Id.
at 56) Still, the facts show “from 14:05:27 to 14:11:18,”
that instead of writing the ticket, he “was going
through their driving record on the computer screen in
. . . [his] car.” Ibid. As to this unbelievable reality, the
Trooper, also clearly insinuated his belief was there
would never be any reason to write a ticket, here. This
follows because clearly his intent at all times was to
make use of his dog. In any event, this must be so
because there was this “six-minute period of time . . .
[when he could have but he] didn’t attempt to write the
warning.” Id. at 32.
The efficacy of this sequence is compellingly
significant. Indeed, because when one reads this trial
transcript, and truly examines its content, not only
realistically but objectively, the story it tells is real.
This to the end that the appropriate resolution can be
made, here, in the light of fundamental criteria as it
was augmented by Rodriguez. Here, too, the trial
Record is most clear. The trooper conceded for sure
“there was no need for him to be concerned with the
passengers’ driving record and criminal history.” Tr. at
51. And, that his only real concern was whether or not
“his license was suspended” or if he was wanted, we

13
suppose. Id. at 51-52. Yet, time was spent, we say
wasted, while the trooper was “waiting for criminal
histor[ies] to come back.” Ibid. What is significant, is
this waiting occurred after he had all the information
he needed from the dispatcher. Indeed, it was obtained
“within a couple minutes.” Id. at 52. So why the wait?
III
Also, let’s be clear: we are indeed contending that
the utilization of the “canine,” also referred to herein as
the “dog,” was indeed to have him make “a search.” For
sure, clearly what he did was a search for contraband.
Simply put, this was a search for probable cause to
make a warrantless search for a basis to arrest. This
we know to be true. To be sure, Trooper Hawkins told
the Court, as much; hence he told us, as well. This
segment of the Record (here being referred to) shows
that to be so. Indeed, it is here the Record reveals:
Q. You aware that in Ohio you can get a
telephonic search warrant in about 15
minutes?
A. It depends on where you’re at on the
scene.
Q. Well, all you have to do is be near a
telephone; right?
A. I did not obtain a telephonic search
warrant.
Q. I understand. But you had the . . . cell
phone, didn’t you?
A. Yes.

14
Q. And you - - you know that Ohio
authorizes the issuance of search
warrants telephonically?
A. Yes.
Q. Right. These people were . . . being
detained?
***
On the basis of the fact that you had
probable cause to search the car?
A. I had probable cause to search the car.
Q. Right. But what - - what are the exigent
circumstances that eliminate any need to
have a warrant to do so?
A. There was none.
***
Q. And there’s no reason why the search
couldn’t be delayed 10 or 15 minutes
while you got authorization from the
Judge to search that car?
A. I suppose not.
Tr. at 47-49. Cf., Appendix “B,” Opinion, ¶15. Surely
given this compellingly cogent admission, which shows
that time was not of the essence here, there has to be
a reason the Ohio Court’s discussion of this issue is,
and was, so egregiously flawed. As far as our Appellate
Court’s thinking, we really do not know what to say,
except perhaps that we are not even slightly surprised.

15
In my view, they still believe this Court made a
mistake when it decided Mapp v. Ohio and Beck v.
Ohio.
Here it is worth repeating, after this stop was made,
clearly nothing happened that even slightly delayed the
trooper resolving any and all aspects of his traffic
investigation. Indeed, the fact this is so could not be
any clearer. Indeed, as one Court, even before
Rodriguez put it: the test in these situations is not (as
our Court held) whether the stop lasted longer than the
average stop, of this type, but whether the motorist
was detained longer than was necessary to complete
the trooper’s mission that was generated by the reason
the stop was made, which in this instance was not to
have been the purpose of this stop. Cf., United States v.
Bell, 820 F.3d 535 (6th Cir. 2009). Clearly then, if that
is so, then it is beyond dispute that satisfying this
trooper’s curiosity, as to whether this motorist’s car
could pass a drug sniffing test was not only irrelevant
here, it also unduly extended the traffic stop. For sure,
in violation of his Fourth Amendment rights. Here, too,
let’s be clear as well, given the traffic stop was over, to
validate the use of the dog, clearly the Court must hold
that it was not a separate Fourth Amendment issue.
Because it could not be related to the stop. See United
States v. Oliver Mendez, 484 F.3d 565 (2007).
ARGUMENTS RELIED ON FOR ALLOWANCE
OF WRIT
The essence then of the Appellant’s version of the
dispositive events, here, is they show that Johndrell
Elliott plead conditionally to the offense he was
convicted of because the trial Court refused to suppress

16
evidence obtained by these State troopers in the wake
of the warrantless stop and the vehicle search made
after a dog alerted. The facts show the stop occurred at
14:01:03. Tr. at 7. The alert occurred at 14:16:52. The
trooper had already learned from his dispatcher at
14:11:18 that Elliott and his passenger’s credentials
were in order and that there were no outstanding
warrants. Thus, they were good to go. Id. at 31.
Also, this officer conceded asking for a criminal
history check was unusual for him. Id. at 53. Also, he
told us it takes him at most perhaps two (2) minutes to
write the warning ticket he had in mind writing. Id. at
56. Still, he decided to wait for their criminal records,
which took an additional perhaps six (6) minutes. Id. at
31-32. (Emphasis supplied.) During which time
produced nothing in connection with the issuance of a
ticket. Id. at 32. Next, he says he did talk to a trooper,
named Roe, who asked if he needed him there. Id. at
42. At 14:11, trooper Hawkins says he was told they
had very extensive convictions in their histories. Id. at
39. Also, trooper Roe and another trooper arrived. After
a further discussion between Hawkins and one of the
other troopers, in which they plotted a strategy, they
opted to have the motorists get out of the vehicle and
while they admittedly lacked the reasonable suspicion
required by Terry v. Ohio, the men they had seized
were frisked, for the officers’ protection - - of course to
no avail. Id. at 39-40. See also Tr. at 43-45. After this
time-consuming event happened Hawkins got his dog
out of the vehicle. It then happened that the dog
alerted. This whole episode occurred after the traffic
violation investigation was over and the drug
investigation has been launched.

17
Here, of course, we have contended and our
challenge shows, the troopers violated his Fourth
Amendment rights. For sure, they detained him longer
than was necessary for Hawkins to have processed his
investigation as to whether Johndrell Elliott was
operating his vehicle with illegally tinted windows.
Simply put, the trial Court inferentially determined the
time involved to do these things was not exceeded.
Indeed, it has to be determined they did nothing wrong.
This being so, because everything he did was not only
necessary but the delays that occurred were
reasonable, and they were in fact articulable suspicions
(that were made clear to the Court), the appeals Court
held that the trooper was justified in his prolonging
their admitted detention.
Even this is not all, because the Court of Appeals,
after making the above finding and imputing it to the
trial Court, also believed no warrant was necessary,
here. Doubtlessly this was because this is what the
officer said - - in effect. Thus, our appeals Court
reasoned that the time involved being within the ambit
of the officer’s estimate of 10-20 minutes it takes to go
from stop to the issuance of a ticket there was nothing
wrong here. See Appendix “B,” Opinion, ¶¶17, 25.
In our judgment, two (2) things, at least are wrong
with that finding made by our Court of Appeals. This
follows because none of its prerogatives allow it to
make dispositive findings and then impute them to the
trial Judge, which is what it did. As to this, clearly
something is wrong with the Appellate Court’s vision.
This follows if they see in these facts a picture that
shows a sufficient factual basis existed to justify the

18
prolongation (of this very minor traffic stop beyond the
few minutes) that was required to deal with it - - not
their innate suspicions. Indeed, given as the Opinion
shows, the trooper here, who was the dog handler, in
lieu of signing and giving our Petitioner the ticket,
ordered the driver and the passenger out of their
vehicle. And, afterwards retrieved his dog. This for the
sole purpose of having him do his thing. Thus, we are
contending that was wrong. Indeed, what these
troopers did here was to, for reasons not related to its
duties as a traffic officer, use the dog to search for
probable cause.
ARGUMENT NO. I:
GIVEN THERE IS, AND WAS, NO
JUSTIFICATION WHATSOEVER FOR THE
USE OF THE CANINE HERE, IT
INEXORABLY FOLLOWS THE DELAYS
REQUIRED TO DO SO, BEING
INDEFENSIBLE, IT MUST BE DEEMED
UNCONSTITUTIONAL IN THE WAKE OF
RODRIGUEZ.
Aside from the various arguments made, here, one
of which shows the Trooper stopped writing the
warning ticket after he had asked for record checks,
they were nonetheless cleared to go. Still, he called for
back-up. This inquiry was so he could find out if they
could pass his canine test. With these facts being the
given here, there are several tenets that the Court
below would simply ignore. These include the
compelling fact that a seizure justified by the interest
in issuing a ticket can be, and did turn, unlawful when
it was prolonged beyond the time reasonably required

19
to complete the officer’s sole mission (under that
circumstance). See Illinois v. Caballas, 543 U.S. 405,
407-408 (2005). And, even the Trooper had to know
this. What we all know is that if the use of the dog
prolongs the stop, it is unreasonable. Id.
Given the facts, and we concede the totality of the
circumstances must also be reckoned with, clearly we
have a violation for, we know, this stop was prolonged
even before the other officer was sent for, and as a
result of the wait for him and the unwarranted removal
(- - i.e., illegal seizure) of the people in the vehicle to
facilitate the deployment of the dog. For sure, we also
have to reckon with the fact that it is clear that rather
than expeditiously conduct the record check and
prepare to issue the ticket citation, this Trooper
actually embarked on a different mission. This was to
make use of his special skills with “his” dog. This it is
clear. He had to know that, given the stop being his
true mission was to issue the ticket, this other
investigation he embarked on could only result in a
prolongation of his original mission, which he had to,
and did, put on the back burner.
With that being so, his use of the dog, knowing full
well that perforce there would be this delay, it follows
the result of the dog test was, in our judgment
constitutionally prohibited. Given the fact of the
impermissible prolongation of the traffic stop that
occurred, the finding of fact, made by the Court of
Appeals, that inasmuch as the total elapsed time,
between the stop and surfacing of probable cause was
reasonable could be imputed to the trial Judge with
impunity. This clearly follows because, as the Court

20
recognized the fact to be and even said so, the Trooper
who was literally writing the ticket, and had almost
completed doing so, actually stopped writing the ticket
when joined by the other trooper. It was at that point,
he first ordered the people out of their car to facilitate
the search of the vehicle - - this by making use of the
“drug dog.” Clearly, these people were, if not under
arrest, seized without probable cause.
Given the fact that, for all intents and purposes, the
investigation of the minor traffic offense was over, the
removal thereafter of the motorist from the vehicle to
facilitate the use of a canine must be deemed a search;
hence, probable cause was required to make use a drug
dog to sniff the vehicle and the people. Here, not unlike
was the situation in Rodriguez, the investigation
(which had already been prolonged), was over before
the officers launched a full-fledged drug investigation.
It entailed the use of a canine stop, which alerted. We
believe Rodriguez compels a reversal here.
Of course, it could not be any clearer the lack of any
finding, made by the trial court, that the prolongation
of this ordinary traffic stop, which allowed them to
conduct a canine investigation, was launched without
the required basis for doing so. So postured, it follows
it was illegal, unconstitutional, and indefensible. This
thesis is augmented by the further fact that the
occupants of a vehicle (stopped for a traffic offense)
cleared any and all permissible inquiries that were
conducted. Thus, their removal thereafter from the
vehicle in order to facilitate the use of a canine, which
then alerted, cannot be defended and validated in law,
logic or commonsense. Here, the facts are clear: trooper

21
Hawkins had one purpose all along; for sure once he
asked for assistance, that was to search this vehicle
and he needed probable cause to do so. Surely that is
clear enough. He needed the dog to alert.
ARGUMENT NO. II:
GIVEN A CANINE WAS PURPOSEFULLY
MANEUVERED TO ALERT, IF POSSIBLE,
WITH REFERENCE TO A LAWFULLY
PARKED VEHICLE THAT WAS
UNOCCUPIED AT THE TIME, IT
INEXORABLY FOLLOWS THAT ABSENT
EXIGENT CIRCUMSTANCES A WARRANT
WOULD BE REQUIRED TO CONDUCT A
SEARCH BASED SOLELY ON ANY
PROBABLE CAUSE SUPPLIED BY SUCH
ALERT.
Given that in Rodriguez v. United States, the
Supreme Court flatly rejected the so-called de minimis
Fourth Amendment rule that was literally conjured up
(in that case), which was, so to speak, not unlike what
was done by the Ohio’s Fifth District Court of Appeals
for this case. That is, the Rodriguez Court held,
contrary to our Court below, that: “a police stop
exceeding the time against unreasonable seizures.” Id.
at 1615. (Emphasis supplied.) Clearly then, contrary to
the Court below, the Rodriguez Court openly declared
a “seizure justified only by a police observed traffic
violation . . . become[s] unlawful if it is prolonged
beyond the time reasonably required . . . [to ticket] the
violation.” Ibid. As that Court saw it, these steps were
“more analogous to a so-called Terry stop . . . than a
formal arrest.” And, as they saw it “like a Terry stop,

22
the tolerable duration of police inquiries in the traffic
stop context is determined by the seizure’s mission” - to address the traffic violation that warranted the stop.
Here, they cited Caballes, 543 U.S., at 407, which also
makes the point totally ignored by our Court in its rush
to judgment (if that was the reason) that authority for
the seizure thus ends when the various tasks tied to
the traffic infraction, or infractions, should have been
completed. Ibid.
With all that being so, given that the utilization of
the dog, cannot possibly be tied to any traffic offense
(moving or otherwise), it surely has to be that the
Courts below saw it otherwise. For sure, the Record
shows that the investigation was over. It also shows
when the backup finally arrived, they were told this
was so. Tr. at 32. It was then Hawkins (the original
trooper), led by Trooper Roe, then began their drug
investigation. If we are wrong, surely this is what we
should be since no Court will tell us why that is not so.
Here, according to our Court, given the officer’s
testimony that the average time involved in the writing
of a traffic ticket is 16 minutes or so and the time
involved was in that area, the Courts of Ohio will be
using that as a bench mark.
Let’s be very clear here, our belief is that none were
de minimis, and the nervousness thesis the trooper
related to Elliott did not provide even a hypothesis of
reasonable suspicion upon which to expand the scope of
this vehicle stop. Stated another way, the result of the
canine sniff, search in our judgment - - a sine qua non
of any arguable hypothesis of probable cause to search
this car was (in our judgment) the direct result of the

23
unlawfully protracted, and prolonged, seizure of these
motorists. Accordingly, the evidence used to convict
should have been suppressed.
Here, too, this original stop was lawful because
Elliott never denied he was speeding. In that regard,
some of us know at least 80-90% of motorists speed on
these Interstates. This tells us these troopers literally
pick from that group of speeders, and those that make
lane changes without signaling. Because this is so,
especially in Ohio, where the officers are among the
worst in the world, these officers, as those involved
here clearly were, know how to delay finalizing the
traffic stop until after they have satisfied themselves
that all of their hunches were unfounded. With this
being so, the law is clear: when an officer has obtained
sufficient evidence to issue is traffic citation or ticket,
any continuation beyond that point without probable
cause to arrest is unreasonable and for that reason is
indefensible.

24
ARGUMENT NO. III:
ONCE THE TRAFFIC OFFICER HERE,
INDICATED
THE
TRAFFIC
INVESTIGATION WAS OVER, AND THE
MOTORIST WOULD BE RELEASED
MOMENTARILY
FROM
THE
INVESTIGATIVE SEIZURE; IT
INEXORABLY FOLLOWS,
T
H
E
DETENTION RELATED TO THE TRAFFIC
STOP WAS OVER; HENCE, ANY FURTHER
DETENTION UNRELATED TO THE STOP
REQUIRED PROBABLE CAUSE TO
ARREST (OR DETAIN), WHICH IF NONEXISTENT (THE CASE, HERE), CANNOT
SURVIVE MEANINGFUL SCRUTINY.
What really augments the positions here taken,
indeed that an arrest had occurred before the search
that revealed the Appellant’s possession of the weapon
which formed the basis for his conviction, is both easily
put and compellingly clear. Indeed, what makes it so
very clear is that given the investigative seizures
talked about in Terry v. Ohio, 392 U.S. 1 (1968) and
Sibron v. New York, 392 U.S. 40 (1968), then clearly
what these officers did cannot possibly be defended. For
the activity this detective claims was the predicate
basis for his actions, which all occurred after the traffic
stop had been fully investigated, was stale. With this
being so, the bottom line here, for us, is truly and
insuperably cogent, this is so the apparent position of
the Court to the contrary, notwithstanding. For sure,
as well, there is nothing in this Record that shows
anything that would justify any type of further

25
investigative detention beyond that required to deal
with the traffic offense itself.
With that being so, the Motion to Suppress should
have been granted, here. This follows because, as put
by the Sixth Circuit, indeed in United States v. Bell,
555 F.3d 535 (6th Cir. 2009), contrary to the Ohio
Court of Appeals, the test is not whether this motorist
was detained longer than that required for the average
traffic stop. Rather, the apt question is whether he was
detained longer then was necessary for the Trooper to
have fully completed his investigation of the traffic stop
he had compelled this motorist to submit to (id. at 538).
Simply put then, the use of the dog was not needed to
complete the stop. With that being so, it was also
irrelevant to the stop to make any use of the dog, which
surely extended the inconvenience to the motorist.
CONCLUSION
The crucial thing, here, is that even though from all
the information the Trooper had (as he said himself),
for all intents and purposes, Elliott was good to go
before Trooper Roe (and the other trooper) arrived,
specifically at 14:12. However, he did not facilitate his
release. As he put it: “once I received . . . their criminal
histories [he still believed] . . . there possibly had been
some criminal activity going on” (tr. at 39) - - i.e., “drug
related activity” (id. at 40). Thus, it is clear, since Roe
had asked earlier if Trooper Hawkins “wanted him to
come there” and even though he didn’t have any reason
“other than the K-9” (id. at 42-43), and the “criminal
history” (ibid), the dog was then used. Any other
reading of this Record simply cannot pass muster.
Indeed, this is what one gets from the above showing.

26
It demonstrates the turn everything took once Trooper
Roe arrived, when it turned into a side show (the
reference here is to pgs. 32-37 which verify this).
The Appellate Court, despite Hawkins’ categorical
testimony that when trooper Roe arrived, he decided to
capitulate to Roe’s “expertise.” He indeed showed, and
allowed him to sort of take-over, as he did. Tr. at 3337. This happened although he had already concluded
they were good to go. If it were otherwise, he would not
have told trooper Roe “the only thing I really got is the
driver’s a little nervous . . ..” Id. at 32. However, it is
clear Hawkins wanted Trooper Roe to “talk to them.”
This because he had a lot of experience as far as
dealing with criminal patrol stuff - - whatever that
means. Tr. at 32-33. Indeed, as Hawkins wanted
Trooper Roe to check them out, hence, that is what
eventuated the use of the dog. No other explanation
makes sense or is even possible.
II
Given Rodriguez, we truly believe the first question
before this Court asks: whether the original officer
diligently pursued his mission. Clearly, it was to ticket
a motorist for a very minor traffic offense. So postured,
it follows the question that arises asks: whether he had
a reasonable suspicion to justify the prolongation of the
original seizure. Here, we know the point the original
trooper cleared the occupants through the criminal
history checks that were done. This reality is
compellingly significant, here. It tells us they were
clear to go. But that did not happen.

27
In any event, and this question was not even
addressed by the trial Court; hence, must be regarded
as inferentially a finding that was made by the Court
of Appeals. Indeed, despite the fact the law is clear, it
cannot make findings and impute them to the trial
Court. For sure, the finding made by the Court of
Appeals, which in any event was baseless, has to be
(since this prolongation that occurred), that the
Trooper had a faint suspicion to prolong the stop in
order for him to make use of his canine. Given our
belief that the use of the dog outside the vehicle simply
cannot be justified by any observation made of the
supposed interactions (by and between the people
inside the vehicle) before they were asked to exit before
the dog made his stroll. Indeed, how can it be said that
the use of the dog was without a purpose. Given it
could not be any clearer the officer lacked probable
cause to search, resulted in the dog supposedly
alerting.
III
If it is still true that in Ohio, the home of Dollrae
Mapp (v. Ohio) and William Beck (v. Ohio), and the
doctrine those cases spawned made it clear that if these
troopers wanted to search these motorists, they needed
probable cause. And once they belatedly removed the
people from the vehicle, they truly needed a search
warrant to make use of their dog. So postured, the
search conducted not only fails because of the lack of
probable cause, but also because of the lack of a
warrant. In making these unassailable contentions we
are indeed centralizing the finding made for us, not by
the trial Court (which in any event should never have

28
been done [for obvious reasons]), but because it is
absolutely indefensible. Here, we have reference by the
Appeals Court that the denial of the Motion to
Suppress was justified because the Trooper completed
the stop within a reasonable length of time. (Judgment
Entry, C. P. Ct., Appeals given that Appx. “C”, at page
3.)
Clearly then, unless we are terribly wrong here, the
trooper stopped the Petitioner’s vehicle, no one would
deny that once he submitted, as he did, he had been
seized. And, with that being so, his Fourth Amendment
rights vested at that point. Thus the length and scope
of his detention were (as put by Terry v. Ohio, 392 U.S.
1 (1968), strictly tied to and justified by the
circumstances which rendered its initiation
permissible. Id. at. 16. Under this thesis, the officer
was only permitted to obtain the identification data
and execute a resolution of his traffic investigation.
And once that was completed the purpose for which the
stop was made is deemed to be over. This follows
because at that point, with those functions being over,
any further detention can only be validated in
accordance with fundamental criteria. And, that cannot
be done here. And, what is more important is that it
was not done here.

29
Respectfully submitted,
JAMES R. WILLIS, ESQ.
Counsel of Record
Reg. No. 0032463
420 Lakeside Place
323 Lakeside Avenue, NW
Cleveland, Ohio 44113
(216) 523-1100
(216) 861-4161 (Fax)
jrwillis-barrister@sbcglobal.net
Counsel for Petitioner

